<html>
<title> - CASUALTIES OF WAR: CHILD SOLDIERS AND THE LAW</title>
<body><pre>[Senate Hearing 110-176]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-176
 
             CASUALTIES OF WAR: CHILD SOLDIERS AND THE LAW

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON HUMAN RIGHTS AND THE LAW

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 24, 2007

                               __________

                          Serial No. J-110-29

                               __________

         Printed for the use of the Committee on the Judiciary




                     U.S. GOVERNMENT PRINTING OFFICE

38-737 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
      Michael O'Neill, Republican Chief Counsel and Staff Director
                                 ------                                

                Subcommittee on Human Rights and the Law

                 RICHARD J. DURBIN, Illinois, Chairman
EDWARD M. KENNEDY, Massachusetts     TOM COBURN, Oklahoma
JOSEPH R. BIDEN, Jr., Delaware       JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       LINDSEY O. GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     SAM BROWNBACK, Kansas
                      Joseph Zogby, Chief Counsel
                 Mary Chesser, Republican Chief Counsel
                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Brownback, Hon. Sam, a U.S. Senator from the State of Kansas, 
  prepared statement.............................................    56
Coburn, Hon. Tom, a U.S. Senator from the State of Oklahoma......     4
    prepared statement...........................................    70
Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois.......................................................     1
    prepared statement...........................................    73
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin......................................................     4
    prepared statement...........................................    76

                               WITNESSES

Beah, Ishmael, Author, New York, New York........................     6
Hughes, Anwen, Senior Counsel, Refugee Protection Program, Human 
  Rights First, New York, New York...............................    13
Mettimano, Joseph, Director, Public Policy and Advocacy, World 
  Vision, Washington, D.C........................................    16
Roth, Kenneth, Executive Director, Human Rights Watch, New York, 
  New York.......................................................    11

                         QUESTIONS AND ANSWERS

Responses of Ishmael Beah to questions submitted by Senator 
  Durbin.........................................................    28
Responses of Anwen Hughes to questions submitted by Senators 
  Coburn and Feingold............................................    30
Responses of Joseph Mettimano to questions submitted by Senator 
  Coburn.........................................................    34
Responses of Kenneth Roth to questions submitted by Senators 
  Durbin, Coburn and Feingold....................................    36

                       SUBMISSIONS FOR THE RECORD

Amnesty International USA, New York, New York, statement.........    42
Beah, Ishmael, Author, New York, New York, statement.............    49
Center for Defense Information, Rachel Stohl, Senior Analyst, 
  Washington, D.C., statement....................................    57
Center for International Human Rights, David Scheffer, Director, 
  Chicago, Illinois, statement...................................    63
Hughes, Anwen, Senior Counsel, Refugee Protection Program, Human 
  Rights First, New York, New York, statement....................    78
Mettimano, Joseph, Director, Public Policy and Advocacy, World 
  Vision, Washington, D.C., statement............................    87
Roth, Kenneth, Executive Director, Human Rights Watch, New York, 
  New York, statement............................................    94


             CASUALTIES OF WAR: CHILD SOLDIERS AND THE LAW

                              ----------                              


                        TUESDAY, APRIL 24, 2007

                                       U.S. Senate,
                  Subcommittee on Human Rights and the Law,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Richard J. 
Durbin, Chairman of the Subcommittee, presiding.
    Present: Senators Durbin, Feingold, Whitehouse, and Coburn.

  OPENING STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR 
                   FROM THE STATE OF ILLINOIS

    Chairman Durbin. This hearing will come to order. This is 
the Subcommittee on Human Rights and the Law. Our hearing today 
is entitled ``Casualties of War: Child Soldiers and the Law.''
    In Italy, long ago, a young boy who followed the knights 
into battle on foot was known as ``enfante,'' collectively as 
the ``enfanteria.'' It was this Italian ``enfanteria'' which 
became our English word ``infantry.''
    Good morning and welcome to ``Casualties of War: Child 
Soldiers and the Law,'' the third hearing of the Subcommittee 
on Human Rights and the Law. After a few opening remarks, I 
will recognize other Senators in attendance for opening 
statements, and then we will turn to our witnesses.
    This is the first time in Senate history there has been a 
Subcommittee focused on human rights, and this is the first 
ever congressional hearing on the urgent human rights crisis of 
child soldiers. That fact alone demonstrates the need for this 
new Subcommittee.
    As this hearing's title suggests, during times of war both 
the rule of law and children are victims. There is a clear 
legal prohibition on recruiting and using child soldiers, and 
yet around the world, hundreds of thousands of boys and girls 
are used as combatants, porters, human mine detectors, and sex 
slaves. While most serve in rebel or paramilitary groups, some 
government forces use child soldiers as well. In countries like 
Burma, Uganda, and Colombia, children's health and lives are 
endangered, and their childhoods are sacrificed.
    I would like to begin this hearing with a brief video that 
will provide some background on the child soldiers crisis. Look 
very carefully at the faces of these combat-hardened soldiers.
    [DVD played]
    Mr. Beah. ``When the war began, everything changed. I lost 
my immediate family, you know, which is sad. They were killed 
in the war.''
    Ms. Becker. ``There are many different ways that children 
end up as solders. Some of them were literally recruited by 
force and taken at gunpoint or kidnapped from their homes in 
the middle of the night. Other children join in groups out of 
desperation.''
    Mr. Beah. ``In the beginning, it seemed, you know, it was a 
place to go for safety. They provided us food, shelter, some 
basic necessities, and we helped in the kitchen. But our 
relationship quickly changed to being forced in this war. There 
was a constant awareness about, you were either in the war 
front fighting or they were killing somebody in front of you to 
further traumatize you. It's not just a child carrying a gun, 
that's a child soldier.''
    Ms. Becker. ``Child soldiers can include kids who are 
working as messengers, as guards, as spies. They could be cooks 
in a military camp. But too often, child soldiers are actually 
combatants on the front lines of combat. They could include an 
8-year-old recruited by paramilitaries in Colombia. It includes 
young boys in Burma, recruited, you know, into the National 
Army. It could be girls recruited by the Lord's Resistance Army 
in northern Uganda. For a lot of girls, the burden is an extra 
one. They are not only used as combatants and for all the 
support roles that boys normally fill, but oftentimes they're 
sexually exploited.''
    Mr. Beah. ``It's not accepted to recruit children at all. 
As a child, we are caught up in this madness. It limits you 
from knowing yourself as a human being and it causes you 
suffering, basically. It just brings suffering to everyone.''
    Ms. Becker. ``Currently in the world there about 20 
countries where children are actively fighting. In 10 of those 
countries, governments are involved either by recruiting 
children directly into their own armed forces or by supporting 
militias or paramilitaries that use children. Of these 10 
countries, 9 of them are currently receiving U.S. military aid. 
This is an opportunity for the U.S. to use its leverage and its 
influence as a military super-power to bring pressure against 
these governments to ensure that they take the action that is 
needed to keep children out of their forces and to demobilize 
children in their ranks.''
    Mr. Beah. ``These are not some kind of other human beings. 
They're the same as anyone in America, in Europe, anywhere. 
They're children whose lives are being taken away most times, 
some of them whose childhood is taken away from them, and 
that's--they can be--you know, things can be done to prevent 
that.''
    Ms. Becker. ``It has to be crystal clear that using 
children in warfare is unacceptable, and that anyone who does 
it is going to have to pay a price.''
    [end video]
    Chairman Durbin. Today we will discuss the tragedy of child 
soldiers and why the law has failed so many young people around 
the world.
    Cicero wrote, ``In times of war, the law falls silent.'' 
The American legal system rejects that notion. There is no 
wartime exception to our Constitution. International human 
rights law, created primarily by Americans and based largely on 
American legal principles, take the same position. Fundamental 
rights must be protected, even during wars or other armed 
conflicts.
    Yet, so often in times of war or perceived threat, human 
rights are sacrificed. No better example exists than the 
tragedy of child soldiers. The law provides special protections 
to children, the most vulnerable members of our society, but 
during wars they are often the most exploited.
    Over 110 countries, including the United States, have 
ratified the Optional Protocol to the Convention on the Rights 
of Child, which prohibits the recruitment and use of child 
soldiers. But if the law is not enforced, it is meaningless. 
This Subcommittee has found similar problems when it comes to 
genocide and human trafficking. When there is no accountability 
for violating the law, governments and rebel forces can violate 
human rights with impunity.
    During today's hearing, we will discuss legal options for 
holding accountable those who recruit or use child soldiers. 
The Special Court for Sierra Leone is prosecuting nine people 
for using child soldiers, and the International Criminal 
Court's first prosecution is against Thomas Lubanga of the 
Democratic Republic of Congo for recruiting and using child 
soldiers. These are positive developments, but they pale in 
comparison to the scale of the child soldier crisis. The 
average perpetrator runs very little risk of being prosecuted.
    One option we will discuss today is for national courts to 
play a greater role in prosecuting perpetrators. I am sorry to 
say that recruiting and using child soldiers is not a crime 
under U.S. law, so the U.S. Government is unable to prosecute 
perpetrators who are found in our country.
    Immigration law is another important tool for holding 
individual perpetrators accountable. Today we will discuss 
whether the U.S. Government has sufficient authority to deport 
or deny admission to an individual who has recruited or used 
child soldiers.
    Governments must also be held accountable. That is why 
Senator Sam Brownback and I have introduced the Child Soldiers 
Prevention Act of 2007. This legislation would limit U.S. 
military assistance to countries clearly identified in the 
State Department's Human Rights Report as recruiting or using 
child soldiers.
    Our bill would ensure that U.S. taxpayer dollars are not 
used to support this abhorrent practice by government or 
government-sanctioned military and paramilitary organizations. 
U.S. military assistance could continue under this bill, but it 
would be used only to remedy the problem by helping countries 
successfully demobilize their child soldiers and 
professionalize their forces.
    We must work to eliminate the use of child soldiers, but as 
long as the practice persists, we must also ensure that the law 
facilitates and encourages the rehabilitation and reintegration 
of these young people back into civilian life.
    Sometimes the law contributes to the stigmatization of 
former child soldiers. For example, there are provisions in our 
immigration laws which brand former child soldiers as 
terrorists, preventing them from obtaining asylum or refugee 
status in the U.S. We must give the Government flexibility to 
consider the unique mitigating circumstances facing these 
children and allow child soldiers to raise such claims when 
they seek safe haven in our country. We also should support 
programs that provide psychological services, educational and 
vocational training, and other assistance to these traumatized 
young people.
    As I have said before, this Subcommittee will focus on 
legislation, not lamentation. I look forward to working with 
the members of the Subcommittee to ensure that our laws treat 
former child soldiers fairly, and hold accountable those who 
recruit and use them, and that these laws are enforced.
    We have to prove Cicero wrong. Even during times of war, 
the law should never fall silent for the most vulnerable among 
us--our children.
    [The prepared statement of Senator Durbin appears as a 
submission for the record.]
    I would now like to recognize Senator Coburn, the Ranking 
Member of the Committee.

STATEMENT OF HON. TOM COBURN, A U.S. SENATOR FROM THE STATE OF 
                            OKLAHOMA

    Senator Coburn. Senator Durbin, first of all, let me thank 
you for your leadership, not just in this area but in others. I 
truly appreciate it. I have a statement for the record, and I 
would like to have it submitted.
    I have read the summaries and the excerpt on Ishmael. It is 
very touching. It is tragic. You display leadership beyond all 
comprehension in your valor and your courage, and I commend 
you.
    I also have in the back of my mind, as a medical missionary 
in northern Iraq, seeing 9-year-old boys carrying AK-47s. So it 
is just not in the areas where we have outlined it, but it is 
in a lot of other areas of the world.
    Again, I would re-emphasize my compliment to you, Mr. 
Chairman, for your leadership in this, on genocide, and other 
areas. I believe you are going to make a difference, and I am 
here to help you do that.
    Thank you.
    [The prepared statement of Senator Coburn appears as a 
submission for the record.]
    Chairman Durbin. Thank you, Senator Coburn.
    I would like to recognize Senator Feingold.

STATEMENT OF HON. RUSSELL D. FEINGOLD, A U.S. SENATOR FROM THE 
                       STATE OF WISCONSIN

    Senator Feingold. Thank you very much, Mr. Chairman. I also 
thank the Ranking Member. I want to thank you for holding this 
important hearing and for introducing, along with our colleague 
Sam Brownback. the Child Soldiers Prevention Act. This 
legislation is a critical step toward ending the use of child 
soldiers around the globe by prohibiting U.S. military 
assistance to countries recruiting or using child soldiers in 
hostilities.
    I would also like to thank all the witnesses here today who 
have experienced or witnessed what child soldiers are forced to 
endure and who each devote and have already devoted tremendous 
time and energy to fighting injustice. Thank you for coming to 
teach us about this tragic practice, one that has gone on far 
too long in too many places.
    The Child Soldiers Prevention Act takes a multifaceted 
approach to dealing with this problem and encourages more 
robust programming for the demobilization, disarmament, and 
rehabilitation of child soldiers in the communities from which 
they come. I am please to cosponsor this bill because I feel 
very strongly that the United States must do more to end the 
exploitation of children, whatever form this abuse takes and 
wherever it occurs. By helping to ensure that U.S. military 
assistance is only provided to countries whose policies respect 
human rights, this bill will send a strong message that the use 
of child soldiers is not acceptable.
    The exploitation of children violates the most basic human 
rights of one society's most vulnerable populations, and yet 
for far too long, children have been not only the passive 
victims of military campaigns, but also active if unwilling 
participants. In Burma, Laos, Sri Lanka, Colombia, and 
particularly in African countries like Uganda, Sudan, 
Democratic Republic of Congo, children as young as 8 are 
routinely abducted and forced to participate in acts of extreme 
violence, sometimes against their own families. They are forced 
to carry out murders, mutilations, and other human rights 
abuses, even as abuses are inflicted upon them.
    Many child soldiers are also subject to coerced drug 
addiction, physiological manipulations, and sexual abuse. At 
least one-third of the estimated 300,000 child soldiers today 
are girls who are often enslaved for sexual purposes by militia 
commanders.
    Even when hostilities cease, these children continue to 
suffer the loss of their childhood, loss of their connection to 
their families and to their communities and to the tools that 
are necessary to pursue a nonviolent life. Often uneducated, 
traumatized, and stigmatized, many of these young people remain 
trapped in cycles of brutality and abuse long after the 
militias are disbanded.
    In the past two decades, as the Chairman has indicated, the 
use of child soldiers has gone from being merely morally 
reprehensible to being a criminal violation of international 
law. The U.S. has demonstrated its commitment to ending the use 
of child soldiers around the world by ratifying and 
implementing the Optional Protocol to the Convention on the 
Rights of the Child, on the involvement of children in armed 
conflict, and last winter, Congo's National Assembly 
transferred a former militia leader to the International 
Criminal Court to face charges of recruitment of child 
soldiers.
    Next month--and this is the case that I am most familiar 
with, having been there and watched this, the case of Sierra 
Leone--the Special Court of Sierra Leone is expected to deliver 
the first two convictions on charges of enlisting children to 
actively participate in hostilities, which the Court considers 
``a serious violation of international humanitarian law.''
    These are all important steps across multiple levels toward 
ending impunity for this reprehensible practice. The 
conscription and abuse of child soldiers is not new, but a 
growing awareness of what these young people are forced to 
endure and the lasting damage cause requires that we work 
diligently here at home as well as in the international 
community to monitor and end the use of child soldiers, hold 
governments accountable for their violations, and improve 
programs of prevention and rehabilitation.
    The use of child soldiers poses a threat to the stability 
and security of communities, countries, and society at large. 
Any of these abuses should be a priority for the U.S. and for 
governments around the world, and, again, I sincerely thank 
you, Mr. Chairman, for your leadership on this and the bill and 
holding this important hearing to raise awareness and encourage 
action to protect children around the world.
    [The prepared statement of Senator Feingold appears as a 
submission for the record.]
    Thank you, Mr. Chairman.
    Chairman Durbin. Thank you, Senator Feingold.
    I would like to ask the witnesses to please stand and be 
sworn. Raise your right hand. Do you swear or affirm the 
testimony you are about to give before the Committee will be 
the truth, the whole truth, and nothing but the truth, so help 
you God?
    Mr. Beah. I do.
    Mr. Roth. I do.
    Mr. Hughes. I do.
    Mr. Mettimano. I do.
    Chairman Durbin. Thank you. Let the record reflect that the 
four witnesses answered in the affirmative.
    Our first witness, Ishmael Beah, is the author of ``A Long 
Way Gone: Memoirs of a Child Soldier.'' ``A Long Way Gone'' is 
a No. 1 New York Times best seller, currently featured at your 
local Starbucks. For those who have not read this important 
book, I urge you to do so.
    Mr. Beah is a former child soldier, but he is much more 
than a victim or a survivor. He had the courage, as Senator 
Coburn has said so well, and the resiliency of spirit to share 
his horrific experiences with the world. He has transcended 
these experiences to become one of the world's best-known and 
most effective anti-child soldier advocates.
    Mr. Beah was born in Sierra Leone in 1980. He moved to the 
United States in 1998 and finished his last 2 years of high 
school at the United Nations International School in New York. 
In 2004, he graduated from Oberlin College with a B.A. in 
political science. Mr. Beah is a member of the Human Rights 
Watch Children's Rights Division Advisory Committee. He has 
spoken before the United Nations, the Council on Foreign 
Relations, and a lot of other places.
    Mr. Beah, thank you for taking time off from your 
successful book tour to come here. It is this Committee's 
distinct honor to have you with us today. Please proceed with 
your opening statement.

 STATEMENT OF ISHMAEL BEAH, AUTHOR, ``A LONG WAY GONE: MEMOIRS 
             OF A BOY SOLDIER,'' NEW YORK, NEW YORK

    Mr. Beah. Thank you, Mr. Chairman, and good morning. Good 
morning to Ranking Member Coburn and Mr. Feingold as well and 
members of the Subcommittee and everyone present here.
    I am here today to tell you about my experiences as one of 
the thousands of children who was forced to fight as a child 
soldier in the Sierra Leone civil war. It isn't easy for me to 
recount these experiences, so I hope that you can give me your 
undivided attention. As I speak to you, there are thousands of 
children from ages 8 to 17 in Burma, Sri Lanka, Congo, Uganda, 
Ivory Coast, Colombia, just to name a few places, that are 
being forced to fight and lose their childhoods and their 
families. They are maimed and they lose their humanity, and 
these are the fortunate ones. Those who are less fortunate are 
killed in the senseless wars of adults. I want you to think of 
them and to simultaneously think about your children between 
those ages and whether you would want them to be subjected to 
the kinds of suffering, pain, and victimization that I and 
others underwent that I am about to describe to you.
    I was 11 years old when the war began in Sierra Leone. 
Prior to that I had a normal life; I went to school, played 
soccer, went swimming, and did my homework. But after the war 
started, I remember seeing a tide of people carrying their 
belongings and their malnourished children walking through the 
streets of my town every morning. They were clearly on a path 
to somewhere else. At the time I couldn't comprehend what made 
those families walk hundreds of miles from their homes, and why 
they were still terrified and preferred sleeping in the bushes 
instead of spending the night in my town. War simply wasn't my 
reality at that time.
    A year later, following the attack on my town and having 
been separated from family, my older brother, a friend, and 
myself were in Mattru Jong, a neighboring town near my home 
where we had been waiting for news of members of our families, 
when we first heard a single gunshot. A few minutes later, we 
heard many more gunshots coming from all around us. 
Instinctively we began running. The gunshots made it difficult 
for us to think, and there was chaos in town as people ran, 
screaming and trampling whoever was in their way.
    As we ran from the sound of the gunshots, we saw children 
who were alone, shirtless, following the crowd, screaming and 
crying for their parents. We saw mothers wailing for their lost 
children with so much pain in their voices that I felt my veins 
tighten and my skin twitch. But all of their cries were in 
vain. To stop and help someone was asking for death as the 
rebels were firing at civilians to stop us from leaving town. 
Each time the gunshots intensified, my body trembled. A woman 
running ahead of me was clearly unaware of the trail of blood 
that followed her--the child she carried on her back had been 
shot and killed. There were bullets coming from everywhere, 
every direction, and people were struck down in front of me as 
I ran for my life.
    I was 12 years old and was on the run for several months 
after the war reached me. I saw dead bodies strewn by the sides 
of roads, witnessed killings, and passed through abandoned 
villages where the air smelled of blood, and where vultures and 
dogs feasted on dead bodies. I had been separated from my older 
brother during an attack and was now with a group of friends 
from school.
    The news that my family was in the village where I was 
headed was the only thing that kept me alive during that 
period. Knowing they were alive and well gave me the strength 
to continue running, even at times when I would go for a week 
without eating anything. But when I finally made it to the 
outskirts of that village, I found that the rebels had arrived 
before me. They attacked and burned the village to the ground. 
They murdered all of my family and everyone who was there.
    Some of the people were shot in the head; others tied and 
burned alive. Some women and children were locked in houses 
that were set on fire. Later, after the rebels had left, I 
began walking in the ruins of the village. But I only went a 
few paces before my knees gave up under me and I fell to the 
ground. I was in too much pain and shock to cry; I felt myself 
beginning to harden. I had lost the strength to carry on. I 
felt that there was no reason to stay alive anymore.
    Not long afterwards, I found myself in a village occupied 
by the Sierra Leonean Army. At first, my friends and I helped 
in the kitchen to cook for the soldiers. They gave us food, a 
place to sleep, some basic necessities, and a feeling of 
security. But after a while, the soldiers announced that they 
wanted to recruit more able bodies as they had lost many men to 
the rebels who constantly tried to attack the village we were 
staying in. We were told that our responsibilities as boys were 
to fight in this war or we would be killed. I was 13 years old. 
Neither my friends nor I had any choice. It was either join or 
be killed. We had no family and no other means of survival. We 
were forcibly recruited and taught how to use the AK-47s, M-
16s, machine guns, G3s, rocket propelled grenades, et cetera, 
for less than a week, and then we were sent into battle. Many 
of my friends were shot dead in front of me as many of us 
didn't know how to use the guns very well and were paralyzed by 
fear.
    I will never forget my first day in battle. We were led 
into the forest by the adult soldiers to ambush the rebels. My 
squad had boys who were as young as 7, who were dragging guns 
that were taller than them as we walked to the front lines. We 
formed an ambush by a swamp and waited for the rebels. Upon 
their arrival, the lieutenant ordered us to open fire. I 
couldn't shoot my gun at first. But as I lay there watching my 
friends getting killed, the 7-year-old boys crying for their 
mothers as life departed their little bodies, and the blood 
from my friends who had died covering my hands and face, I 
began shooting. Something inside me shifted and I lost 
compassion for anyone. After that day, killing became as easy 
as drinking water. I had lost all sense of remorse.
    Our commanders gave us drugs--marijuana, cocaine, and Brown 
Brown: a concoction of cocaine and gunpowder--before battles to 
anesthetize us to what we had to do. They showed us war movies 
like ``Rambo: First Blood'' to fuel our thirst for war and our 
sense of invincibility. There was also tremendous coercion 
wherein if the child didn't carry out orders from the 
commander, that child was killed. The tools used to force us to 
commit atrocities were the guns. There were too many of them, 
and they came from all parts of the world. There were M-16s, 
which are guns primarily made in the U.S; G3s, German weapons; 
and AK-47s, just to name a few.
    For over 2 years, all I did was take drugs, fight, and kill 
or be killed. At the time it felt as though there was no way to 
stop. I never imagined that I would be able to leave that life 
behind, as I had been cutoff from all other realities except 
for that of the war.
    But I did get out of that madness with the help of Children 
Associated with War, which was sponsored by UNICEF and other 
nongovernmental organizations. I wouldn't be alive today if it 
weren't for the presence of nongovernmental organizations that 
believed that children like myself, due to our emotional and 
psychological immaturity, had been brainwashed and forced to be 
killers, and above all, that we could be rehabilitated and 
reintegrated into society. Healing from the war was a long-term 
process that was difficult but very possible. It required 
perseverance, patience, sensitivity, and a selfless compassion 
and commitment from the staff members at my healing center. 
Effective rehabilitation of children is in itself a preventive 
measure, and this should be the focus, not punitive measures 
against children that have no beneficial outcome for the child 
and society.
    I and many others are living proof that it is possible for 
children who have undergone and experienced such horrors to 
regain their lives and become ambassadors of peace. My 
experience and those of other survivors exemplifies the 
resilience of children and the capability of the human spirit 
to outlive life's worst circumstances, if given a chance and 
the right care and support.
    In the United States, many people criticize the United 
Nations, its affiliates, and generally NGO's. For some of us 
these are the only organizations that are willing to speak for 
our plights, to raise awareness about our sufferings, and to 
help us recover when no one comes to our aid. Their work must 
be strengthened rather than chastised.
    In, addition it is important and life saving not only to 
have international legal standards that ban the use of children 
in war, but they must be strengthened and supported by nations 
affected and those not affected by these appalling tragedies. 
With the presence and enforcement of these legal standards, 
United Nations and NGO workers will have the courage and 
conviction to confront commanders who use children in war and 
ask them to release those young fighters. If such legal 
standards hadn't been in place, I wouldn't be here. I would be 
dead. But the problem continues, which is why I urge you to 
join in prevention efforts by supporting the prosecution of 
those who recruit children; strengthening international laws to 
ban the use and sale of small arms, a good number coming from 
the United States, that end up in the hands of children; and, 
finally, condemning and curtailing all support to nations that 
recruit children or allow such practices to occur on their 
territory.
    One thing that history has taught us is that when we ignore 
such problems as the use of children in war, they become bigger 
and more complex problems that later affect us and that we then 
might be unable to solve. If you do not help these children 
now, they will grow into adults who will become the leaders of 
their nations who will have no understanding of ethical and 
moral standards, and, ladies and gentlemen, whether you like it 
or not, your children, the future leaders of this country, will 
have to face them and deal with them.
    When you go home tonight to your children, your cousins, 
and your grandchildren and watch them carrying out their 
various childhood activities, I want you to remember that at 
that same moment, there are countless children elsewhere who 
are being killed, injured, exposed to extreme violence, and 
forced to serve in armed groups, including girls who are 
raped--leading some to have babies of commanders--all of them 
between the ages of 8 and 17. As you watch your loved ones, 
those children you adore most, ask yourselves whether you would 
want these kinds of suffering for them. If you don't, then you 
must stop this from happening to other children around the 
world whose lives and humanity are as important and of the same 
value as all children everywhere.
    In conclusion, I would like to add that yesterday I was 
involved for the first time in an aspect of advocacy for former 
child soldiers in a way I have not been before. I testified in 
an immigration court hearing in New York City on behalf of a 
former child soldier from Cote d'Ivoire. I was called as a 
witness both because of my personal experience as a child 
soldier as well as my knowledge on the general conditions child 
soldiers face all over the world.
    Similar to the stories of many former child soldiers, the 
young man on whose behalf I testified has real promise. I know 
from my work with the attorneys on his case that he is a highly 
intelligent and very decent person, despite what he was forced 
to participate in during the conflict in his home country.
    Yesterday was one of the few bright days this person has 
had in many years. The judge granted his asylum claim because 
of the position taken by this country's own government, though 
it is far from certain that this former child soldier is in 
store for a happy ending here in the United States. Sadly, and 
really, inexplicably, the Department of Homeland Security 
already indicated it very well may appeal the judge's grant of 
asylum. For the entire case, the Department of Homeland 
Security has maintained that this young man, who at age 15 was 
forcibly taken by rebels who fed him massive amounts of drugs 
and political rhetoric, while compelling him at, in essence, 
gunpoint to train and take up arms, that this young man is 
actually himself a persecutor. In taking this extreme position, 
the Government has ignored the international consensus that 
these children generally are victims, not persecutors. And 
because the Government has taken this view, this young man was 
detained for almost the entire 6 months since he came to the 
U.S. seeking asylum. He was kept in an adult facility outside 
of New York City and brought to court in chains and handcuffs. 
I saw this for myself yesterday. He was treated like a 
criminal. His decriminalization, if you can call it that, was 
undertaken in a jail in the U.S. His crime--he wanted to escape 
a war that destroyed his family and his childhood.
    I mention this case because I encourage the members of the 
Committee to consider the wider scope of the issue of child 
soldiers. I, of course, applaud the Committee for its efforts 
and interest in this area. We need, though, the most holistic 
approach possible if the children are to be saved. Not only do 
we need to pressure governments to immediately cease its use of 
child soldiers, we need to also convince our own Government to 
provide the humanity so sorely lacking by not detaining those 
former child soldiers fortunate enough to come to the U.S. And 
we certainly should ensure that the U.S. Government does not 
accuse these victims, such as the young man who will now have 
to fight this appeal and continue to live in fear of being sent 
back to a war zone.
    I thank you very much for your time.
    [The prepared statement of Mr. Beah appears as a submission 
for the record.]
    Chairman Durbin. Mr. Beah, thank you very much for your 
testimony. We will have other statements from members of the 
panel, and then we will ask a few questions.
    Mr. Kenneth Roth is the next witness, He is the Executive 
Director of Human Rights Watch, a post he has held since 1993. 
From 1987 to 1993, Mr. Roth served as Deputy Director of Human 
Rights Watch. Previously, he was a Federal prosecutor in the 
U.S. Attorney's Office for the Southern District of New York, 
and the Iran-contra investigation of Washington. He worked in 
private practice as a litigator, and graduated from Yale Law 
School and Brown University. Mr. Roth was drawn to human rights 
causes in part by his father's experience fleeing Nazi Germany 
in 1938.
    Mr. Roth, thank you very much for joining us, and we look 
forward to your testimony.

  STATEMENT OF KENNETH ROTH, EXECUTIVE DIRECTOR, HUMAN RIGHTS 
                   WATCH, NEW YORK, NEW YORK

    Mr. Roth. Thank you very much, Mr. Chairman and Ranking 
Member Coburn. Human Rights Watch welcomes the creation of this 
standing Senate Committee focused on human rights and the law, 
and applauds your vision in particular, Senator Durbin, for 
recognizing the important contribution that this Committee can 
make. We are glad to help in launching the Committee and its 
important work. I also want to thank you for focusing on the 
very important issue of the exploitation of children as 
soldiers around the world and for giving Human Rights Watch the 
opportunity to address the Committee today.
    I would like to focus my testimony on two aspects of the 
child soldier issue: first, the importance of prosecuting 
people who recruit or use child soldiers; and, second, 
opportunities for the United States to use its military 
assistance program as leverage to discourage the recruitment or 
use of child soldiers.
    In the last decade, significant progress has been made in 
establishing criminal responsibility for the recruitment or use 
of child soldiers. A prohibition against recruiting and using 
children under the age of 15 in hostilities was first codified 
in the 1977 Additional Protocols to the Geneva Conventions. 
Then, in 1998, governments negotiating the so-called Rome 
Statute of the International Criminal Court recognized that the 
prohibition had achieved the status of customary international 
law. They agreed that the conscription, enlistment, or use in 
hostilities of children under the age of 15 should be 
considered a war crime under the Court's jurisdiction, whether 
carried out by members of national armed forces or by non-state 
armed groups.
    In May 2004, international jurisprudence on this issue 
advanced further when the Appeals Chamber of the UN-backed 
Special Court for Sierra Leone ruled that the prohibition on 
the recruitment and use of children under the age of 15 had 
crystallized as customary international law prior to 1996, and 
the Court found that the individuals responsible bear criminal 
responsibility for their acts.
    With these developments, individual commanders now have 
begun to be prosecuted for the crime of recruiting and using 
child soldiers. As you mentioned, Senator Durbin, the use of 
child soldiers is included in the indictments against each of 
the nine defendants currently being tried by the Special Court 
for Sierra Leone, including former Liberian President Charles 
Taylor. The International Criminal Court also recently 
initiated prosecution of Thomas Lubanga of the Democratic 
Republic of Congo for the recruitment and use of child 
soldiers, paving the way for the first ICC war crime trial. In 
addition, the ICC has indicted the leadership of Uganda's 
Lord's Resistance Army for the same offense.
    As trials proceed and convictions are handed down, these 
prosecutions will send a clear message that commanders cannot 
recruit children without serious consequences. Even though no 
deterrent is ever perfect, these prosecutions offer the 
possibility of saving substantial numbers of children from the 
horror of combat and military recruitment.
    Unfortunately, few countries have criminalized the 
recruitment or use of child soldiers under their national 
criminal codes. The U.S. Criminal Code, for example, does not 
address the issue, even of an individual who has recruited or 
used child soldiers in another country and then seeks safe 
haven in the United States.
    Mr. Chairman, I urge this Committee to consider action to 
amend the U.S. Criminal Code to make the recruitment or use of 
children in violation of international law a punishable crime, 
whether committed here or abroad, and to establish jurisdiction 
over U.S. citizens or non-nationals present in the United 
States who commit this crime.
    Precedent for such an approach already exists in Federal 
law, including the torture provisions in the U.S. Criminal Code 
and the Genocide Accountability Act, which you yourself 
introduced and that was adopted by the Senate earlier this 
year. Both of these measures allow for the prosecution of 
either U.S. citizens or non-nationals present in the United 
States, even if their crimes were committed outside of the 
United States.
    The second issue I would like to address is the opportunity 
that the U.S. Government has to use its military assistance 
programs as leverage to end other governments' recruitment or 
use of child soldiers.
    According to the most recent State Department Country 
Reports, of the 20 countries around the world where children 
are currently fighting as soldiers, governments are implicated 
in 10. For example, in Colombia, paramilitaries with 
longstanding ties to Colombian military units recruit children 
as young as 8 to fight against the guerrillas, sometimes 
forcing them to mutilate and kill captured rebels.
    In the Democratic Republic of Congo, Human Rights watch 
found just last month that hundreds of children had been 
recruited by the newly formed Congolese army brigades in North 
Kivu and are being deployed to the front line in operations 
against local armed groups.
    In Uganda, the rebel Lord's Resistance Army has abducted 
thousands of children into its ranks, but children have also 
been found in the ranks of the Ugandan national army. Last 
year, the U.N. reported that more than a thousand children had 
been recruited into government-sponsored local defense units in 
Uganda's northern districts.
    In Sri Lanka, as the civil war has escalated over the past 
year, an armed group linked to the government, known as the 
Karuna Group, has abducted hundreds of boys to fight the rebel 
Tamil Tigers, who also continue to recruit children.
    Mr. Chairman, Human Rights Watch strongly supports the 
Child Soldiers Prevention Act of 2007, introduced last week by 
you and by Senator Brownback. The Act would restrict U.S. 
military assistance to governments that have been identified by 
the State Department's own reporting as using child soldiers, 
whether in their own armed forces or by supporting 
paramilitaries or militias that themselves use child soldiers. 
While the amount of U.S. military assistance is often not 
large, the loss of U.S. military backing would be a powerful 
political blow to these governments and a strong motivator to 
end any involvement in child recruitment.
    Although many child soldiers are found in rebel armies that 
receive no U.S. support, there is little hope of curbing child 
recruitment by rebel armies as long as they can justify their 
use of children by pointing to child recruitment by 
governments. The stronger we can make the international norm 
against the use of child soldiers, the harder it will be for 
rebel groups to pay the political price of using them. That 
norm-building process must begin with governments.
    In conclusion, the Child Soldiers Prevention Act would 
provide a powerful incentive to governments to end the 
recruitment and use of child soldiers and to demobilize 
children from their armed forces. It would also assure the 
American people that U.S. tax dollars are not supporting the 
exploitation of children as soldiers.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Roth appears as a submission 
for the record.]
    Chairman Durbin. Thank you very much, Mr. Roth.
    Our next witness is Anwen Hughes, who is an attorney with 
Human Rights First. She is senior counsel of that 
organization's Refugee Protection Program. She helps oversee 
Human Rights First's pro bono representation for indigents 
seeking asylum. Previously she was a staff attorney for Legal 
Services in New Jersey, where she represented recipients of 
public benefits and coordinated legal services for the elderly. 
Ms. Hughes received her J.D. from Yale and her B.A. from Yale 
as well.
    Ms. Hughes?

 STATEMENT OF ANWEN HUGHES, SENIOR COUNSEL, REFUGEE PROTECTION 
        PROGRAM, HUMAN RIGHTS FIRST, NEW YORK, NEW YORK

    Ms. Hughes. Thank you very much. Chairman Durbin, Ranking 
Member Coburn, and members of the Subcommittee, thank you for 
inviting me here today to offer the views of Human Rights First 
on how our immigration laws are treating former child soldiers 
and those who conscript them. On behalf of Human Rights First, 
I also want to thank you, Chairman Durbin, for your leadership 
in the creation of this new Subcommittee which acts as an 
important signal that this country understands its human rights 
treaty obligations as part of our law.
    There has been testimony already today on ongoing efforts 
and progress that is being made to prohibit the use of child 
soldiers and to hold accountable those who abuse the rights of 
children. And with the possible exception of people who 
conscript children for service into their own national armies, 
our immigration laws also provide ample basis for excluding 
those who recruit or use child soldiers in violation of 
international law. That is the good news.
    The bad news is that those same provisions, which are bars 
based on very broad definitions of terrorist activity and 
terrorist organizations, are also being interpreted to exclude 
from protection children who escape from being soldiers and 
seek safety in the United States. Even as we work to prohibit 
and to condemn the use of child soldiers as a violation of 
children's rights, our immigration laws are being interpreted 
to target the victims of those same abuses and exclude them 
from protection.
    Our organization provides legal representation to refugees 
seeking asylum in this country, and I remember in the late 
1990's interviewing several young people who, while still 
teenagers, had been taken captive by the RUF in Sierra Leone. 
This was the rebel army there at the time. In some cases, these 
rebels had killed the children's entire families before 
abducting the kids, and when they managed to escape from the 
rebels, the children were targeted by terrific civilians and 
also by government forces as suspected rebels. Many people in 
this situation fled into neighboring Guinea, but then Guinea 
turned on its refugees, and some of them, with nowhere else to 
turn, fled to the United States.
    At that time, some were granted asylum here and were able 
to begin new lives. But they would not be so lucky now. These 
kids' forced service to the rebels consisted of hard labor for 
the most part, carrying heavy crates on forced marches through 
the forest, and in the case of girls, getting raped. But even 
as the international community has worked to prohibit the use 
of child soldiers, not only in active combat but also as cooks, 
as cleaners, as porters, as sex slaves and so on, our 
definition of ``terrorist activity'' under the immigration laws 
has expanded to include all of these activities, so that even 
kids who are lucky enough to be forced only into non-violent 
activity are now being tagged with the same terrorist label as 
their former captors. This is psychologically harmful to all 
refugees, but particularly to child soldiers, who often face 
the same stigma in their home communities.
    The second problem former child soldiers face is that the 
Government agencies that decide asylum and refugee claims, as 
in the case that Ishmael was referring to earlier, are failing 
to recognize any defenses or exceptions to this wildly 
expanding statute. So the children who were forced to do what 
they did or were too young at the time to appreciate what they 
were doing, or both, will be barred from protection despite 
these facts.
    This is a problem of interpretation, not a problem with the 
current statute, or at least it should not be. Defenses and 
exceptions should be considered to be implicit in the statute, 
and, in fact, up until around 2004, a number of lawyers 
representing the Department of Homeland Security in Immigration 
Court were agreeing with this position in litigation. 
Unfortunately, the current trend has been toward a unified 
refusal to recognize that the terrorism bars were not meant to 
target 12-year-olds or, for that matter, adults who act under 
duress.
    I also want to emphasize that in talking about child 
soldiers wrongly subject to exclusion under these provisions, 
we are talking about the children who have been rehabilitated 
and who are seeking the protection of refugee status or asylum 
so that they can continue to put their lives and their psyches 
back together. We are talking about people no one is seriously 
arguing pose a threat to us. Anyone who actually does pose a 
threat to the security of this country is barred from asylum 
under a separate provision of the law.
    While authority exists under the statute to waive some of 
these provisions as an unreviewable matter of executive 
discretion, the implementation of that waiver authority has 
been extremely slow and also incomplete. Also, it does not 
cover any child who is actually a combatant, who actually 
fought for a rebel army. And, finally, there is no waiver 
authority for some of the other bars that child soldier cases 
sometimes trigger.
    For example, our organization has been representing a young 
man who was jailed and tortured at the age of 13 by his own 
government, which then forced him into its national army. He 
was 14 years old at the time. He was sent to the front where he 
was made to shoot at people in the distance, some of whom may 
have been civilians. He does not know if he hit anybody. He 
does know that another child who refused to shoot was executed 
in front of his eyes, as was another child who tried to escape. 
This young man, while still a child, fled to the United States 
and told our Government all about this. The Department of 
Homeland Security has been opposing his application for asylum 
for years on the grounds that his actions as a child and under 
duress make him a persecutor of others. There is no waiver for 
this bar to protection. This young man is a great person, and 
he has done a remarkable job of putting a life together for 
himself here. But he has no security, and everything he does he 
does under a cloud of deportation hanging over his head.
    We will soon be filing an application for asylum for 
another former child soldier whose case is likely to end up in 
indefinite limbo based on the erroneous interpretation of these 
bars to asylum. I cannot tell this child how long it will be 
before this problem is fixed and she can really feel save here-
6 more months, 1 more year, 2 more years? That is a long time 
when you are 15 years old.
    Those who use child soldiers often use atrocious means to 
convince them that they can never go home. Right now our 
immigration laws prevent them from finding shelter here either. 
This situation urgently needs to change. If the relevant 
Federal agencies will not recognize defenses and exceptions as 
inherent in the current statute, Congress should act to make 
clear that its intention in passing these laws was not to turn 
the very harm refugees have suffered into a ground for 
excluding them from the protection they need.
    Thank you.
    [The prepared statement of Ms. Hughes appears as a 
submission for the record.]
    Chairman Durbin. Thank you.
    Our last witness is Joseph Mettimano, Director of Public 
Policy and Advocacy for World Vision. I might just add 
parenthetically that as I have traveled, I often ask in the 
countries where I travel about the NGOs. World Vision enjoys a 
very good reputation for excellent work around the world.
    Mr. Mettimano. Glad to hear it.
    Chairman Durbin. I am glad you are here today representing 
them.
    Prior to joining World Vision, Mr. Mettimano served as the 
Deputy Director of Public Policy and Advocacy with the U.S. 
Fund for UNICEF. Before that, he held other positions in the 
nonprofit sector and the broadcasting industry. Mr. Mettimano 
holds a B.A. from Temple University.
    Thank you for joining us. Please proceed.

  STATEMENT OF JOSEPH METTIMANO, DIRECTOR, PUBLIC POLICY AND 
            ADVOCACY, WORLD VISION, WASHINGTON, D.C.

    Mr. Mettimano. Thank you. Good morning, Mr. Chairman. I 
want to thank you and Senator Coburn for inviting me to testify 
at this very important hearing, but more importantly, I want to 
thank both of you for your ongoing leadership and commitment to 
protect children, both here in the United States and around the 
world.
    I also want to note that it has been a real pleasure 
working with your staff on this bill, Senator Durbin. Shannon 
Smith has just done a fantastic job stewarding this bill 
through the process.
    My colleagues on the panel already have provided a wealth 
of information on the topic of child soldiers and illuminated 
both the legal and very personal impact that this issue has 
around the world. My goal today, hopefully, is to provide the 
Committee with the perspective of an operational humanitarian 
organization on this topic. As you noted in your comment, 
around the world, World Vision is working in communities where 
this is a problem, so I would like to talk a little bit about 
our programs and what are some of the challenges that we 
encounter in addressing this issue. In addition, I would like 
to just provide a few thoughts as a child advocate here in 
Washington, D.C.
    First, let me just give a quick profile of the organization 
that I represent. World Vision is a Christian humanitarian 
organization. We were founded in 1950, and today World Vision 
is the largest, privately funded, international humanitarian 
organization based in the U.S. and one of the leading 
nongovernmental organizations in the world. We have 23,000 
staff serving the poor in nearly 100 countries, and in 2006, we 
provided assistance to more than 100 million people around the 
world.
    As a child-focused organization, it is both imperative and 
inescapable that we address several forms of child 
exploitation, everything from sexual exploitation through 
exploitative child labor and including the issue we are talking 
about today--child soldiers. Our work with child soldiers is 
really focused primarily on prevention, demobilization, 
rehabilitation, and reintegration of those who are impacted by 
this problem.
    Needless to say, it is an exceedingly difficult problem to 
address in the field. As has already been noted, many of these 
children are forcibly recruited by either rebel groups or 
state-run military organizations. Others may not but continue 
to serve in armed conflict nonetheless. Many of these kids are 
exploited as a result of their poverty. In some communities, 
children have very few options. They may not be able to get 
three square meals a day unless they are participating and 
joining one of these military groups. So oftentimes, as a 
result of their poverty, they are exploited and enticed to join 
one of these military groups. It is really just an unfortunate 
situation for many kinds in these communities.
    I want to note that children suffer higher mortality rates, 
disease rates, and injury rates in combat situations than 
adults so. And the lasting effects of war and abuse may remain 
with these kids for long periods of time after the shooting 
stops.
    Both girls and boys often are stigmatized and traumatized 
by their experience, as many are forced to commit atrocities 
against their own families and their own communities. Sometimes 
they are left without a place to go when the bullets stop 
flying.
    Given the horrific nature of this abuse, there are a range 
of interventions that are needed, some of which World Vision is 
doing and many of our partners are engaging in. First and 
foremost is the need to identify who these kids are and get 
them demobilized. Getting them away from conflict situations 
and providing them with protective shelter so they are 
protected from the organizations that they are engaged with.
    Second, obviously these kids require a substantial amount 
of medical treatment and psychosocial support. A number of 
children who are in our programs have bullet wounds, knife 
wounds, other battle injuries. But more often than not, they 
all have psychological trauma.
    Third, if reintegration is possible, that is the next step 
in the process, preparing these kids to return back to normal 
life. That is done through peer counseling, job training, and 
informal education, most of which World Vision is engaged with. 
And then we start the process of family tracing and 
reunifications, hopefully trying to get these children back 
with their families and in their communities.
    And, fifth, it is very important that we address the very 
specific needs of the girls who have been affected by armed 
conflict. As has already been noted, many of these girls serve 
double duty, both as combatants and as sex slaves to rebel 
commanders or other military leaders in the units that they are 
a part of. Several of these girls end up with children as a 
result of this exploitation, and many also have sexually 
transmitted diseases.
    For World Vision, prevention is the key. We believe that 
prevention is the absolute best intervention. We would rather 
see these children not exploited in the first place rather than 
having to do long after-care.
    One of our strongest programs is located in northern 
Uganda, actually, in Gulu, a northern district in Uganda. World 
Vision runs the Children of War Program, which is a counseling 
center for former child soldiers and adults who were abducted 
as children. It is the largest and most well established 
rehabilitation center in all of Uganda. It opened in 1995, and 
the center provides abducted children with temporary shelter, 
AIDS education, food, medical treatment, psychosocial 
counseling, vocational counseling, spiritual nurture, and helps 
to facilitate the smooth reunion of the children with their 
families. I am proud to say that more than 15,000 children have 
gone through our center since it opened in 1995.
    Based on our experience, let me give you an idea of the 
kinds of situations that we deal with. I am sure the panel and 
members of the Committee are likely aware of the 21-year 
conflict that has been going on in northern Uganda. This 
conflict has terrorized the region, destroyed the lives of an 
entire generation of children, and hindered overall development 
of the country since it started. According to Human Rights 
Watch and the Coalition to Prevent Child Soldiers, the northern 
Uganda conflict today has one of the highest rates of child 
soldier usage in the world.
    For the past 21 years, the children of northern Uganda have 
been made pawns in a deadly game of war between the Lord's 
Resistance Army--the LRA--and the Government of Uganda. Well 
more than 25,000 children have been used as child soldiers in 
this conflict since its inception.
    Senators, indeed the face of this war in northern Uganda is 
children. More than 80 percent of the LRA is made up of 
abducted children at this time. In addition, there are 
allegations that the Ugandan Army--or UPDF, Ugandan People's 
Defense Force--has used child soldiers as well. For years, 
there have been mass hostage takings by the LRA, where tens of 
thousands of children have been abducted and forced to become 
soldiers. ``Kill or be killed'' is the reality for every one of 
these children. And in the case of girls, as we mentioned, 
being sexually exploited comes along with the territory of 
being abducted into the LRA.
    This environment has resulted in stories like that of 
``William,'' an 11-year-old boy in Uganda who was forced to 
kill five people as part of his indoctrination with the LRA, 
with which he served for 2 years. The first time William killed 
someone, he, along with other children, were forced to bite to 
death one child who had attempted to escape from the LRA. After 
the victim died of blood loss and shock from the biting, 
William and others were then required to swallow the dead 
child's blood. It was a warning to him and others not to try to 
escape, or they would face the same torture.
    I also want to tell you about a friend of mine by the name 
of Grace Akallo, a former child soldier who testified on behalf 
of World Vision before the U.S. House of Representatives last 
year. In October 1996, the LRA attacked St. Mary's College, a 
girls' boarding school in Aboke Town in northern Uganda. They 
abducted 139 girls, including Grace, and she was 15-years-old 
at the time. She and the other girls that were captured were 
then trained on how to assemble, disassemble, clean, and use 
guns. They were held in slavery by both the northern Sudanese 
Government and by the LRA. Grace and her classmates were 
forcibly given to senior LRA commanders as so-called wives and 
then repeatedly raped. Five of Grace's friends died in 
captivity, many are infected with HIV/AIDS, and 11 years later, 
two of her friends are still held hostage by the Lord's 
Resistance Army. Fortunately, both William and Grace eventually 
escaped and received support.
    Right now, with the support of the United Nations and 
countries from the Africa region, peace talks are underway 
between the warring parties, so-called Juba peace talks. We are 
very hopeful that this may lead to peace, but after 21 years of 
death, destruction, and broader regional instability, the 
international community needs to maintain an active presence 
and support for these talks. In particular, all parties 
involved have requested the presence of the U.S. Government at 
the talks in Juba.
    Uganda is just one chapter in this story, Senator.
    Unfortunately, similar situations exist around the world. 
Today an estimated 250,000 children are serving in armed 
conflict in 20 countries. These child soldiers include both 
boys and girls, sometimes as young as 8 years old.
    The challenges for NGO's like World Vision and others are 
many. First and foremost, just our limited access to getting to 
these kids, limited influence in getting these children 
demobilized. We are operating in a war zone. It is very 
difficult to get these kids out of combat.
    Second is implementing programs in a conflict setting; 
ability to successfully get to resources, ability to operate 
safe centers is very challenging.
    Third, you can imagine the psychological and physical 
trauma that these victims endure. Sometimes it is well beyond 
our means to be able to successfully bring about a full healing 
to many of these children.
    And then there are the many other problems: preventing the 
child from getting re-recruited if they leave our center; 
protecting children from retaliation, keeping in mind that they 
committed atrocities against their own communities and their 
own families; and then reunification of children with their 
communities.
    More specifically, the challenges for reintegration include 
just the continued conflict and instability in their respective 
regions, lack of educational and vocational opportunities, and 
the situation of girls who now have children as a result of the 
conflict; lack of adequate funding for psychosocial programs 
and community followup. Followup is also imperative. Again, all 
of this is occurring in the backdrop of violent conflict.
    While organizations like World Vision can continue to work 
to protect and rehabilitate children, our ability to mitigate 
and resolve conflict is quite limited. We can help bring 
physical and emotional wounds to healing, but we cannot stop 
the war or change the policies of the governments or 
organizations that use children in conflict.
    From our perspective, the international community, 
especially world leaders such as the U.S. Government, can and 
should play a more engaged role through diplomatic efforts, 
program funding, assisting peace negotiations, and leveraging 
resources.
    Over the years, I am glad to say that the U.S. Government, 
and the U.S. Congress in particular, has provided millions of 
dollars in program funding, ratified treaties, and passed 
relevant resolutions
    For example, the U.S. Government is a state party to the 
Optional Protocol to the Convention on the Rights of the Child. 
The United States is also a state party to ILO Convention 182. 
In addition, the United States has enacted the Trafficking 
Victims Protection Act of 2000. This along with a range of 
resolutions passed by both the House and the Senate have been 
helpful. However, most recently, actually last week, the U.S. 
Senate under your leadership, Mr. Chairman, introduced another 
piece of legislation that provides a key element of a strategy 
to combat this problem. As you know, while many child soldiers 
are found among armed non-state actors, the State Department 
reports that 10 countries are implicated in the use of child 
soldiers. Some of these governments recruit children directly 
into their own armed forces, while others are directly linked 
to militias that use children in warfare. The U.S. Government 
provides military assistance to nine of these ten countries, 
whether it is a small amount of funding for military training 
or hundreds of millions of dollars in weapons or military 
systems.
    I am very confident that most U.S. taxpayers would agree 
that U.S. tax dollars should not be used to support the 
exploitation of child soldiers. Nor should U.S. weapons end up 
in the hands of children abroad.
    You and Senator Brownback have introduced the Child Soldier 
Prevention Act of 2007 to encourage governments to disarm, 
demobilize, and rehabilitate child soldiers from government 
forces and government-supported paramilitaries by restricting 
various forms of U.S. military assistance to these governments 
and to get them to end any involvement in this practice.
    Chairman Durbin. Mr. Mettimano, if I could ask you to wrap 
up.
    Mr. Mettimano. Yes. I am right now, sir.
    Rightly, this bill is directed at national governments that 
receive military assistance to help them professionalize their 
forces and to ensure that U.S. taxpayer dollars are not used to 
finance the exploitation of children.
    We at World Vision believe this bill will provide strong 
incentives for foreign governments to end any involvement in 
the recruitment of child soldiers and, notably, also encourages 
the U.S. to expand funding to rehabilitate child soldiers 
around the world.
    Mr. Chairman, I applaud you for your leadership on this 
important piece of legislation and on human rights issues 
around the world. We at World Vision stand ready to work with 
you on our common goals.
    [The prepared statement of Mr. Mettimano appears as a 
submission for the record.]
    Chairman Durbin. Well, thank you very much, and as I said 
earlier, World Vision is a major player in this, and the 
rehabilitation efforts I have heard about as I have traveled 
make a big difference.
    Mr. Beah, we have thousands of soldiers coming back from 
war--from Iraq and Afghanistan and other places--and about one 
out of three of them come back with a condition known as post-
traumatic stress disorder. The stress that they have been under 
in combat, separation from their families, the things that they 
have witnessed, and the things that they have done haunt them, 
sometimes for years after they return.
    When I listened to you describe what you had personally 
been through, the separation from your family, losing your 
family, the horrible violence that you witnessed, can you tell 
me whether that type of psychological situation is something 
that you had to deal with personally?
    Mr. Beah. Yes. Well, I went through rehabilitation for 8 
months after I was removed from the conflict, so I had to deal 
with that. But even, you know, I think a lot of people think 
that healing from this kind of war is sort of an immediate 
process. I think it is a long-term process, and with time you 
learn to live with the memories and you transform them into 
something positive, which is what I have done. But these 
things, what I saw, what I was forced to be a part of, are 
things I will never forget. But I think children who live 
through this, what they come to learn is that those things 
become instructional tools for them to know what not to do 
because they understand deeply what violence truly is and what 
it does to the human spirit, what it does to communities, and 
what it does to human beings in general.
    Chairman Durbin. I guess you would have to say that you, 
despite this terrible experience, have been fortunate since to 
have a helping hand to put your life back together. Have you 
been in touch with any of those who were with you, other child 
soldiers in Sierra Leone? Do you know what has happened to 
them?
    Mr. Beah. I was in Sierra Leone last year, and I was able 
to find some friends who had been at the center with me or some 
that I have known through the war. There are a few who have 
been able to emigrate to other countries, who live abroad, and 
there are few living in Sierra Leone who are still going to 
school. And there are those who, because during the height of 
the war when I was able to live because of the American family 
that I was able to get, some who didn't have that opportunity 
were dragged back into the war again. So some of them are 
completing another second phase of rehabilitation. So there are 
some of those instances.
    But, you know, I truly believe that if children are given 
the right care and support and if they are prevented from re-
recruitment, they can actually regain themselves. It is not 
just about healing the child. It is also about creating 
something substantive for the child after they heal so that 
they will be able to take charge of their life. I think it is 
very important.
    Chairman Durbin. Do you know if the people of Sierra Leone 
are following this prosecution that I mentioned in my opening 
remarks, where nine people have been accused of using child 
soldiers and are being prosecuted in the courts of that 
country?
    Mr. Beah. People are--in the beginning, when the Special 
Court was formed and the commission, there was a strong 
interest in it, but I think from my personal experience of it 
and from the people I have spoken to, when Charles Taylor was 
moved to the Hague, I think that dealt a blow to a lot of 
people because I think people wanted that trial to take place 
in Sierra Leone or in West Africa so that--because that is what 
has been missing in that subcontinent for a while. The rule of 
law and justice being administered to people, however big or 
powerful they are, has failed people since the 1960's. So 
people wanted that to happen, and that would have helped repair 
the judicial system. But when that was taken, I think a lot of 
people lost interest in, you know, sort of the effectiveness of 
this thing. But people are still interested and people--not as 
many as we would want.
    Chairman Durbin. Ms. Hughes, Senator Coburn and I both 
thought that after your testimony we should have direct contact 
with the Department of Homeland Security to ask them about this 
wrinkle in the law, the PATRIOT Act, that you have talked about 
that is causing such injustice. And as I understand your 
testimony, the ``material support'' language in the PATRIOT Act 
would lead those who are coerced, such as child soldiers, to be 
treated the same as those who are coercing. Is that right?
    Ms. Hughes. That is right--I mean, that is wrong, and that 
makes no sense and that is unfair. But that is the way the law 
is being interpreted. And that is true not only of the material 
support provisions in the law, but also in other provisions of 
the law that are also bars to refugee status, for example, the 
persecutor bar as well.
    Chairman Durbin. And could you tell me, did I also 
understand your testimony to say that in some instances the 
recruiter might be treated more favorably than the coerced 
child?
    Ms. Hughes. In the particular situation where the recruiter 
was a governmental recruiter, then there is an interesting 
wrinkle in the terrorism bars where, although they are 
extremely broad, the one thing they do require is that the 
activity, the terrorist activity, be unlawful in the country 
where it was carried out. And that is being interpreted to 
exclude governmental conduct, basically.
    Chairman Durbin. Thank you.
    Senator Coburn?
    Senator Coburn. I am interested in when somebody presents 
for asylum, what is the availability to those that have not 
undergone rehabilitation, as they present for asylum, what is 
available to them? I understand, especially from reading the 
excerpts of your book, that there is a great impact that 
happens in the field in terms of rehabilitation with World 
Vision and others. But what happens if somebody is here for 
asylum and has not been rehabilitated? What do they do? Does 
anybody want to answer that? What is available to them? As you 
outlined, your friend who is being held in chains and is now 
under--I guess Homeland Security is going to appeal the 
decision on your friend or the person that you testified for.
    Mr. Beah. Yes.
    Senator Coburn. Has he undergone rehabilitation? And what 
was available to him for that?
    Mr. Beah. In the United States, actually nothing is 
available because what happens, when he arrived, because his 
mother was able to get him out and put him on a plane with a 
fake Swiss passport, and when he arrived, he said, ``I want 
asylum.'' And they basically called immigration.
    So immediately in the U.S., when you arrive with those 
cases, instead of rehabilitative measures or taking care of you 
becoming the first step, the first question becomes: Why are 
you illegal, and how can we deal with that? Not, How can we 
rehabilitate you and then take care of your case?
    Senator Coburn. So basically we need a special track in 
this country for children soldiers who are seeking asylum.
    Mr. Beah. Well, not all of them come that are not 
rehabilitated, but those who--
    Senator Coburn. But those that do not--or let's say that 
you are coming, rehabilitated or not, what we have heard in the 
testimony from Ms. Hughes and Mr. Roth and Mr. Mettimano is 
that we do not have a system set to handle this right now in a 
compassionate, discerning way. What we do is let the harsh 
words of the law apply very vigorously through somebody's 
interpretation, intended or otherwise, and so consequently we 
may pass this bill, but if we do not do anything about changing 
the actual system on how people come through here and how they 
are met and how they are dealt with in terms of recognizing 
what they come from, it is going to be for naught.
    So I would like to hear whatever suggestions you might 
have, and you do not have to do that now, but you might put 
into writing to Senator Durbin and me what you would see. In 
other words, given the law, the PATRIOT Act, given also the 
immigration changes that were there with the REAL ID, what 
needs to be tweaked to be able to accomplish that in a 
compassionate way, recognizing that there still may be 
terrorists in a group of this, but to give us both the 
compassion we need as a country, but also the protection that 
we need as a country. I wondered if you might do that for us.
    Ms. Hughes. We would be happy to. There have been 
legislative measures proposed that would make explicit in the 
Act the notion of mitigation and defenses and exceptions that 
we think should be implicit in the Act already. And so that 
would be an important step not only for child soldiers, but 
also for other refugees who are facing equally compelling 
pressure, because we obviously do not want a situation where 
the child soldier who makes it onto the plan is provided with 
protection, but the mother who paid money to a rebel group to 
get his release is barred.
    Senator Coburn. Right. And we also want to make sure that 
somebody coming here for asylum that was a child soldier that 
has not been rehabilitated, if they get asylum and we do not 
have a way to help them with the rehabilitation, what have we 
let loose if somebody has not been through that process, much 
like Ishmael has?
    You know, I read the poignant characterization of you in 
this adopted family where you were. Was her name Helen? What 
was the lady's name? I read this last night late, so I am 
having trouble. She said, ``Why don't I become your family?'' 
What was her name?
    Mr. Beah. Esther.
    Senator Coburn. Esther. You know, the fact that everybody 
needs an Esther. Everybody needs an Esther that has gone 
through that, somebody that is going to reach down in and re-
establish human bonding of compassion and caring.
    Mr. Chairman, thank you for the hearing. We will have a 
couple of written questions that we would like to submit, and I 
very much--and I am going to ask the Chairman to have a hearing 
with Homeland Security and Immigration here so that we can 
actually find out why the change in status. Was it totally 
based on the law? And with your recommendations and that 
hearing, maybe we can actually do the tweaks. We need to hear 
both sides of the story, but maybe we can do the tweaks to 
appropriately handle this.
    Chairman Durbin. I thank you, Senator Coburn, and some of 
the issues raised in the human trafficking hearing, which I 
know you have seen some reports on, can also be addressed by 
Homeland Security.
    Senator Coburn. I would also like to ask to be named as a 
cosponsor of the bill.
    Chairman Durbin. I am going to ask unanimous consent for 
that to occur, and I think I just received it. So you are now a 
cosponsor of the bill. Thank you very much.
    Mr. Roth, a moral dilemma is taking place in Uganda where 
both sides are exploiting children. How do we achieve peace and 
justice in those circumstances?
    Mr. Roth. I think that there are many people who falsely 
assume that you have to grant amnesty in order to have peace, 
and certainly the murderous Lord's Resistant Army, the 
leadership that has been indicted by the International Criminal 
Court, is trying to advance that simplistic view. I think our 
experience, though, is that peace without justice will not be 
peace. The best example is to look at what happened in Sierra 
Leone, where there was initially an amnesty given to the 
Revolutionary United Front because it said you cannot prosecute 
us if we are going to have peace. The government gave in, and 
the rebel group used about 2 years to rearm and relaunch the 
war with further use of child soldiers and further atrocities. 
Frankly, that sort of small example can be replicated across 
the continent.
    If you send the signal that no matter how vicious you are, 
no matter how many child soldiers you enlist and deploy into 
combat, when push comes to shove and it is time for a peace 
accord, you just say, ``Sorry, you know, no peace unless you 
give me an amnesty,'' you are going to end up encouraging that 
kind of misuse of children again and again and again.
    So the only way to have lasting peace in Uganda or lasting 
peace across the continent is to be serious about this crime 
that now exists at the international level that we hope will 
exist now at the national level as well, and to prosecute 
particularly the leadership who are responsible. This does not 
mean prosecute every single person who has been involved, but 
the leadership which has been indicted by the ICC should have 
its day in court and spend a good long time in prison.
    Chairman Durbin. I will not go into it, but it raises the 
terrible ethical challenge in Sudan, where I believe the 
Khartoum government has been reluctant to allow U.N. 
peacekeepers to come into the Darfur region for fear that they 
will gather evidence against that same government in terms of 
their criminal misconduct.
    Mr. Roth. I have heard that argument, but let me, if I 
could, put it another way. Khartoum got away with murder and 
mayhem and atrocities for 21 years in southern Sudan, and they 
said, you know, ``OK, we will agree to peace in southern Sudan. 
Just don't prosecute us for what we did there.'' And the 
international community bought that deal, and that paved the 
groundwork for the atrocities that are now taking place in 
Darfur. Because they got away with it once, they will get away 
with it again.
    The only way to prevent the proliferation of these kind of 
atrocities is to draw the line and to say when you have 
committed these crimes, we now have the institution to 
prosecute you, and you will be prosecuted.
    Chairman Durbin. I certainly hope that everyone feels as I 
do, which was one of the elements behind the Genocide 
Accountability Act, that we do not want the United States to be 
a safe haven for those who are guilty of war crimes anywhere in 
the world. They have to believe that there is not a comfortable 
place for them to live in this country, that they can be 
prosecuted for their misconduct.
    Mr. Mettimano, when I listened to Mr. Beah's testimony, he 
talked about being anesthetized with drugs during much of his 
experience as a child soldier. And I think about what World 
Vision is trying to do to try to bring back these young people 
from the horrible, atrocious lives they have lived and the 
violence that they have witnessed and perpetrated.
    How do you deal with that in addition to drug addiction 
which may have been created in this same experience?
    Mr. Mettimano. As I noted in my comments, it presents a 
very difficult challenge and, frankly, many children never 
fully recover from their experiences as a child soldier, and it 
is just compounded if drugs are involved because it hinders 
sort of the cognitive process with kids being able to work 
through what they experienced, or it can at least protract the 
process significantly.
    Part of our program, both in northern Uganda and other 
places where we have encountered this, including Sierra Leone, 
has just included ongoing, intensive drug rehabilitation like 
you may find in other places. But the process typically is 
going to last a lot longer because you are dealing not only 
with drug treatment, but physical wounds that are being healed, 
deep emotional wounds, depending on the age of the victim, and 
all that is being done in isolation. Typically there is no 
family support network around these children, so it is a very 
difficult and complex process to work through.
    Chairman Durbin. What is your success rate on 
rehabilitation of these young people?
    Mr. Mettimano. In general, about 98 percent, and in Uganda 
it has been about 92 percent of the 15,000 that have gone 
through our center.
    Chairman Durbin. And Mr. Beah tells a story of losing his 
family during the course of this.
    Mr. Mettimano. Right.
    Chairman Durbin. I would imagine that story is repeated 
many times by those who are being helped by your organization. 
So as they leave, still children, where do they go? What is the 
next step?
    Mr. Mettimano. It depends on the age of the victim. If they 
are still under age 18, what we try to do is if they can go 
back to their nuclear family or their community, we try to get 
them in foster placement basically with another family in their 
home community or in an area that is near their home so they 
are still within familiar boundaries.
    If the person is of adult age, we try to give them all the 
skills that they need to mainstream their life: give them job 
training skills, we give them informal education, and place 
them in a place where they will be able to restart their life 
and they will not be under constant threat of retaliation 
because of their crimes.
    Chairman Durbin. Mr. Beah, do you know what happened to 
your captors, those who took you away and made a soldier of you 
at that early age?
    Mr. Beah. No. I am not sure what happened to them. During 
the course of the war, there were a few who were killed, but 
after that, I was removed from it. I do not know what happened 
to those.
    Chairman Durbin. Well, I would like to say that I am going 
to wrap up this hearing, but as I said at the outset, we 
address some very serious and poignant issues in this 
Subcommittee, but I do not want the Committee hearing to end 
with people saying, ``Isn't it a darn shame?'' This is about 
doing something, passing legislation, changing policy, trying 
to address these issues. I will repeat what I said earlier: It 
is not about lamentation; it is about legislation.
    There are three specific things that have come out in this 
hearing that I want to work on. The first is on asylum seekers, 
and I do believe that that provision of the PATRIOT Act 
relative to material support of terrorism needs to be 
revisited. If we cannot see the distinction between those who 
are coercing children into this situation and those who are 
coerced, the children, then the law is clearly not what we want 
it to be and needs to be addressed. That is No. 1.
    Number two is to give prosecution authority within the 
United States for those who are guilty of crimes involving 
child soldiers overseas, again, so that no one can view the 
United States as a safe haven if they have been engaged in this 
conduct either officially in a governmental capacity or in any 
other capacity.
    And, finally, the bill, which Senator Sam Brownback and I 
have introduced, this is going to be more challenging because I 
want to tell you, when you look at the list of the nine or ten 
countries involved, there are some there that are considered 
friends of the United States and cooperative with the United 
States. And we have to be very blunt with them that cooperation 
will mean that they also forswear the use of child soldiers in 
their own countries. And if they fail to do so, they will pay a 
price, that the military assistance will be relegated to 
efforts to remedy this problem; and if they do not remedy it, 
then military assistance may be reduced or cutoff.
    That is not an easy task in this Congress because there 
will be many people who argue that so many other good things 
are happening, we should not push this issue. But those are the 
three things: asylum, prosecution authority, and military 
assistance, foreign military assistance to countries involved 
in using child soldiers.
    I do want to do a little bit of housekeeping here before I 
bring this to an end. I want to note that--if I can find it 
among my papers here. I want to place in the record written 
statements from the Center for Defense Information, Amnesty 
International, and David Scheffer, Northwestern Law School 
professor and former U.S. Ambassador for War Crimes Issues. 
Without objection, and since there is no one here, there will 
be no objection--Senator Whitehouse?
    Senator Whitehouse. No objection.
    [Laughter.]
    Chairman Durbin. Good. We are glad that you are here. We 
are just about to wrap up the hearing, but I want to give you a 
chance, Senator, if you would like to make a statement or ask a 
question.
    Senator Whitehouse. No. I am happy to meet the panel at the 
end.
    Chairman Durbin. Well, thank you for joining us here. Thank 
you very much.
    The hearing record will remain open for a week for 
additional materials from interested individuals and 
organizations. Written questions for the witnesses will also be 
submitted by the close of business 1 week from today. We will 
ask the witnesses to respond promptly, if they can.
    As we close the hearing, I would urge everyone listening to 
contemplate the question and challenge that Ishmael Beah posed 
to all of us today. As a father and grandfather, I listened to 
your words very carefully because you said: would we want our 
children and grandchildren to endure the pain and suffering 
that Mr. Beah and other child soldiers face?
    As Mr. Beah reminded us, the lives of child soldiers are 
just as important as those of our own kids and grandkids. We 
have a moral obligation to take action to help these young 
people and to stop the abhorrent practice of recruiting and 
using child soldiers.
    Mr. Beah, thank you for being here today. Thank you for 
this long journey that you have made that brought you to this 
hearing room and I'm sure that you will continue to be a strong 
advocate for changing this terrible situation. It is a great 
honor to have you in the hearing room as well as the other 
witnesses.
    Mr. Roth, thank you for the continued work that you have 
done.
    Ms. Hughes, fighting on the front lines, in the courtrooms 
and at the hearings for a lot of people, I thank you for that.
    Mr. Mettimano, again, my best to World Vision and the many 
other NGOs that do such fine work.
    This hearing is adjourned.
    [Whereupon, at 11:22 a.m., the Subcommittee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]
[GRAPHIC] [TIFF OMITTED] 38737.001

[GRAPHIC] [TIFF OMITTED] 38737.002

[GRAPHIC] [TIFF OMITTED] 38737.003

[GRAPHIC] [TIFF OMITTED] 38737.004

[GRAPHIC] [TIFF OMITTED] 38737.005

[GRAPHIC] [TIFF OMITTED] 38737.006

[GRAPHIC] [TIFF OMITTED] 38737.007

[GRAPHIC] [TIFF OMITTED] 38737.008

[GRAPHIC] [TIFF OMITTED] 38737.009

[GRAPHIC] [TIFF OMITTED] 38737.010

[GRAPHIC] [TIFF OMITTED] 38737.011

[GRAPHIC] [TIFF OMITTED] 38737.012

[GRAPHIC] [TIFF OMITTED] 38737.013

[GRAPHIC] [TIFF OMITTED] 38737.014

[GRAPHIC] [TIFF OMITTED] 38737.015

[GRAPHIC] [TIFF OMITTED] 38737.016

[GRAPHIC] [TIFF OMITTED] 38737.017

[GRAPHIC] [TIFF OMITTED] 38737.018

[GRAPHIC] [TIFF OMITTED] 38737.019

[GRAPHIC] [TIFF OMITTED] 38737.020

[GRAPHIC] [TIFF OMITTED] 38737.021

[GRAPHIC] [TIFF OMITTED] 38737.022

[GRAPHIC] [TIFF OMITTED] 38737.023

[GRAPHIC] [TIFF OMITTED] 38737.024

[GRAPHIC] [TIFF OMITTED] 38737.025

[GRAPHIC] [TIFF OMITTED] 38737.026

[GRAPHIC] [TIFF OMITTED] 38737.027

[GRAPHIC] [TIFF OMITTED] 38737.028

[GRAPHIC] [TIFF OMITTED] 38737.029

[GRAPHIC] [TIFF OMITTED] 38737.030

[GRAPHIC] [TIFF OMITTED] 38737.031

[GRAPHIC] [TIFF OMITTED] 38737.032

[GRAPHIC] [TIFF OMITTED] 38737.033

[GRAPHIC] [TIFF OMITTED] 38737.034

[GRAPHIC] [TIFF OMITTED] 38737.035

[GRAPHIC] [TIFF OMITTED] 38737.036

[GRAPHIC] [TIFF OMITTED] 38737.037

[GRAPHIC] [TIFF OMITTED] 38737.038

[GRAPHIC] [TIFF OMITTED] 38737.039

[GRAPHIC] [TIFF OMITTED] 38737.040

[GRAPHIC] [TIFF OMITTED] 38737.041

[GRAPHIC] [TIFF OMITTED] 38737.042

[GRAPHIC] [TIFF OMITTED] 38737.043

[GRAPHIC] [TIFF OMITTED] 38737.044

[GRAPHIC] [TIFF OMITTED] 38737.045

[GRAPHIC] [TIFF OMITTED] 38737.046

[GRAPHIC] [TIFF OMITTED] 38737.047

[GRAPHIC] [TIFF OMITTED] 38737.048

[GRAPHIC] [TIFF OMITTED] 38737.049

[GRAPHIC] [TIFF OMITTED] 38737.050

[GRAPHIC] [TIFF OMITTED] 38737.051

[GRAPHIC] [TIFF OMITTED] 38737.052

[GRAPHIC] [TIFF OMITTED] 38737.053

[GRAPHIC] [TIFF OMITTED] 38737.054

[GRAPHIC] [TIFF OMITTED] 38737.055

[GRAPHIC] [TIFF OMITTED] 38737.056

[GRAPHIC] [TIFF OMITTED] 38737.057

[GRAPHIC] [TIFF OMITTED] 38737.058

[GRAPHIC] [TIFF OMITTED] 38737.059

[GRAPHIC] [TIFF OMITTED] 38737.060

[GRAPHIC] [TIFF OMITTED] 38737.061

[GRAPHIC] [TIFF OMITTED] 38737.062

[GRAPHIC] [TIFF OMITTED] 38737.063

[GRAPHIC] [TIFF OMITTED] 38737.064

[GRAPHIC] [TIFF OMITTED] 38737.065

[GRAPHIC] [TIFF OMITTED] 38737.066

[GRAPHIC] [TIFF OMITTED] 38737.067

[GRAPHIC] [TIFF OMITTED] 38737.068

[GRAPHIC] [TIFF OMITTED] 38737.069

[GRAPHIC] [TIFF OMITTED] 38737.070

[GRAPHIC] [TIFF OMITTED] 38737.071

[GRAPHIC] [TIFF OMITTED] 38737.072

[GRAPHIC] [TIFF OMITTED] 38737.073

[GRAPHIC] [TIFF OMITTED] 38737.074

[GRAPHIC] [TIFF OMITTED] 38737.075

[GRAPHIC] [TIFF OMITTED] 38737.076

[GRAPHIC] [TIFF OMITTED] 38737.077

[GRAPHIC] [TIFF OMITTED] 38737.078

                                 <all>

</pre></body></html>
